Supreme Court of the United States
No. 19-416
NESTLÉ USA, INC.,
Petitioner
v.
JOHN DOE I, ET AL.;
Respondents

and

No. 19-453
CARGILL, INC.,
Petitioner
v.
JOHN DOE I, ET AL.
Respondents

MOTION TO TAX COST AWARD AND WAIVE COSTS FOR
INDIGENT RESPONDENTS.
On July 19, 2021, the Clerk of the Supreme Court awarded $8,694.14 in costs
taxed to the Respondents, $8,394.14 for the preparation of the Joint Appendix and $300
in Clerk’s costs. In doing so, the Clerk was likely not aware that Respondents John Does
I-VI are subsistence farmers in Mali and are indigent and unable to pay such a large cost
award. Respondents respectfully request that the Court issue an Order that these costs
be waived on account of Respondents’ indigency. Their situation is described in the
Declaration of Terrence Collingsworth attached hereto (“Collingsworth Declaration”).
It is well established in the vast majority of Circuits that indigency – or, more
broadly, an inability to pay due to financial circumstance – is an important factor that
may be considered in determining an award of costs pursuant to Fed. R. Civ. Pro. 54

(d). See Rivera v. City of Chicago, 469 F.3d 631, 365 (7th Cir. 2006) (listing seven other
Circuits which have expressly come to this conclusion); Badillo v. Cent. Steel & Wire Co.,
717 F.2d 1160, 1165 (7th Cir. 1983) (“Mindful of the presumption that costs are to be
awarded to the prevailing party under this rule, Popeil Brothers, Inc. v. Schick Electric, Inc.,
516 F.2d 772 (7th Cir. 1975), we hold that this presumption may be overcome by a
showing of indigency”); Stanley v. Univ. of S. Cal., 178 F.3d 1069, 1079 (9th Cir. 1999)
(“Indigency is a factor that the district court may properly consider in deciding whether
to award costs”). Costs allocated under Fed. R. Civ. Pro. 54 must generally adhere to
the confines of reasonability and necessity and are reviewed for abuse of discretion. See
Crosby v. City of Chicago, 949 F.3d 358, 364 (7th Cir. 2020). While an appellate court may
correct a district court’s allocation of costs, a district court’s discretion is usually
ultimate. Id. at 363–64 (“Challenging a district court's award of costs is an uphill battle.
‘We have made it clear that Rule 54(d) creates a presumption that the prevailing party
will recover costs, and that the ultimate decision to award costs is within the district
court's discretion.’”) (quoting M.T. Bonk Co. v. Milton Bradley Co., 945 F.2d 1404, 1409
(7th Cir. 1991)). Federal Rule of Appellate Procedure 39(d)(2) likewise allows for
objections to costs to be filed.
This Court’s analogue to Rule 54, Rule 43, places discretion over the taxation of
costs squarely in the Court’s purview by compelling that the side against whom the
Court directs to “pay costs unless the court otherwise orders.” U.S. Sup. Ct. Rule 43
(2); see also Bradstreet v. Potter, 41 U.S. 317, 318 (1842). Respondents are extremely poor

former child slaves who currently reside in Mali. They simply do not have the capability
to pay $8,394.14 in costs. See Collingsworth Declaration at ¶¶ 2-11, filed concurrently
herewith. Therefore, it is in the interest of justice and equity for the Court to exercise
its discretion and vacate the cost award.
To show indigency for purposes of the taxation of costs, a party must show they
are unable to pay without adherence to mere “unsupported, self-serving statements that
[they are] unable to pay the costs sought. . .” McGill v. Faulkner, 18 F.3d 456, 459 (7th
Cir. 1994). They must provide “substantial documentation of a true inability to pay”
and the court must first determine whether or not they have the financial capacity to
pay taxed costs. Chapman v. AI Transport, 229 F.3d 1012, 1039 (11th Cir. 2000); see also
Rivera, 469 F.3d at 635 (establishing a two-pronged test for a District Court to use to
find indigency, starting first with a determination of financial capacity); Cote v. Stuecker,
547 Fed. Appx. 778, 779 (7th Cir. 2013) (“a litigant asserting indigence must furnish
proof of his inability to pay”). Next, Courts should survey other relevant factors
including “the amount of costs, the good faith of the losing party, and the closeness
and difficulty of the issues raised by a case when using its discretion to deny costs.”
Rivera, 469 F.3d at 635–36; see also Cherry v. Champion Int’l Corp., 186 F.3d 442, 446 (4th
Cir. 1999) (listing similar relevant factors).
Although the Supreme Court is not bound by the caselaw of lower courts which
allows lower federal courts to consider a party’s financial vulnerability when awarding
costs, Fed. R. Civ. Pro. 54, Fed. R. App. Pro. 39, and U.S. Sup. Ct. Rule 43 all provide

discretion over the taxation of costs. As such, this Court certainly would be able to
consider Respondents’ financial vulnerability before taxing costs. Consistent with the
test established by the Seventh Circuit in Rivera, 469 F.3d at 635, Respondents have
displayed they cannot pay the costs the Clerk has initially taxed. Each Respondent
makes below $1,000 (U.S.) a year working in Mali, a country where the average percapita income is $859 (U.S.) per year. Collingsworth Declaration at ¶ 9. A charge of
$8,394.14 would deprive all six Respondents of over a year’s worth of income and
would likely starve Respondents and their families. Id. at ¶ 10. While Respondents lack
U.S. income statements by virtue of the fact that they are ex-child slaves who live in
poverty overseas, Respondents’ inability to pay the sum taxed by the Clerk is
documented by Terrence Collingsworth based on interviews and data provided on
Malian average income by the World Bank. Id. at ¶ 2, 9. Therefore, Respondents have
provided documentation of their inability to compensate Petitioners Nestle, USA and
Cargill for the preparation of the Joint Appendix.
Moreover, the other factors outlined in Rivera, 469 F.3d at 635–636, “the amount
of costs, the good faith of the losing party, and the closeness and difficulty of the issues
raised by a case when using its discretion to deny costs,” also suggest the Court should
waive charges to Respondents. First, the amount of money required to compensate for
the preparation of the Joint Appendix and Clerk’s fees would exceed each Respondents’
yearly income multiple times over; for these impoverished children, $8,394.14 is an
insurmountable sum. Collingsworth Declaration at ¶¶ 9–10. Second, Respondents did

